  September 15, 2003




Financial Management

Controls Over DoD
Closed Appropriations
(D-2003-133)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ADA                   Antideficiency Act
DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulation
GAO                   General Accounting Office
TI                    Treasury Index
              Office of the Inspector General of the Department of Defense
Report No. D-2003-133                                                 September 15, 2003
      (Project No. D2002FI-0082)

                        Controls Over DoD Closed Appropriations

                                        Executive Summary

Who Should Read This Report and Why? This report should be read by DoD civilians
and uniformed officers responsible for issuing policy on adjustments to closed
appropriations, Defense Finance and Accounting Service (DFAS) personnel who account
for and control closed appropriation adjustments, and other DoD personnel responsible
for fund control. The report discusses the need for increased oversight of and stronger
controls over the use of closed appropriations.

Background. In 1990, Congress changed the law governing the use of appropriation
accounts by substantially restructuring the period of availability of appropriations. The
new law specified that 5 years after the expiration of an appropriation available for a
definite number of years, the appropriation would be closed and all remaining balances
canceled. After an appropriation closes, agencies cannot use the funds for obligations or
expenditures for any purpose. After an appropriation closes, obligations and adjustments
to obligations that would have been properly chargeable to the appropriation before
closing may be charged to currently available appropriations subject to limitations
specified in title 31 U.S.C. section 1553 (b). In 1993, the Comptroller General of the
United States ruled that under certain limited circumstances, the Department of the
Treasury could restore canceled balances. Agencies could use the restored balances to
correct reporting errors or clerical mistakes. However, the Comptroller General of the
United States clearly stated that he did not intend for closed appropriation adjustments to
correct an agency’s accounting system deficiencies.

Even though balances in closed appropriations are canceled, records of the balances must
be maintained to prevent Antideficiency Act violations due to permitted adjustments and
expenditures charged to current appropriations. At the end of FY 2000, Treasury ceased
reopening closed appropriations for accounting adjustments and stopped maintaining
records of the canceled balances. DoD assumed responsibility for maintaining records of
the canceled balances for closed appropriations. DFAS processes adjustments to closed
appropriations and maintains the closed appropriation balances for DoD. During
FY 2001 and the first half of FY 2002, DFAS reported $3.1 billion (absolute value) of
adjustments to closed appropriations to the U.S. Treasury.

Results. DoD did not have fundamental controls over the use of closed appropriations.
Specifically, DFAS did not maintain accurate records of closed appropriation balances
and did not effectively control closed appropriation adjustments. As a result,
Congressional and DoD oversight over closed appropriations was impaired, and unspent
funds in closed appropriations were vulnerable to abuse. In addition, DFAS approved
closed appropriation adjustments based on inaccurate balances that could have resulted in
over obligations and Antideficiency Act violations, and made improper∗ adjustments to
∗
    Contrary to law, regulation, or Comptroller General guidance.
closed appropriations. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer should emphasize the importance of controls over the use of closed
appropriations and monitor compliance with applicable laws and regulations. DFAS
should establish specific standard procedures to ensure that accounting personnel approve
only legal and proper adjustments to closed appropriations, and ensure that accounting
personnel understand this new guidance. DFAS should validate the canceled balances
and report any potential Antideficiency Act violations in accordance with section 1351,
Title 31, United States Code. (See the Finding section of the report for detailed
recommendations.)

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Director, DFAS concurred with the finding
and recommendations; therefore no additional comments are required. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                              i

Background                                                    1

Objectives                                                    3

Finding
     Controls Over Closed Appropriations                      4

Appendixes
     A. Scope and Methodology                                 18
        Management Control Program Review                     19
        Prior Coverage                                        19
     B. Closed Appropriation Guidance                         21
     C. Report Distribution                                   24

Management Comments
     Office of the Under Secretary of Defense (Comptroller)   27
     Defense Finance and Accounting Service                   29
Background
           Use of Closed Appropriations. In 1990, Congress changed the law governing
           the use of appropriation accounts.1 Public Law 101-510, “National Defense
           Authorization Act for Fiscal Year 1991,” November 1990, amended title 31,
           United States Code, sections 1551-1557 (31 U.S.C. 1551-1157), and substantially
           restructured the period of availability of appropriations. The act specifies that
           5 years after the expiration of a fixed term appropriation, the appropriation is
           closed and all remaining balances canceled. After an appropriation is closed,
           agencies cannot use the appropriation account for obligations or expenditures for
           any purpose. Any collections authorized or required to be credited to an
           appropriation account, but not received before closing of the appropriation must
           be deposited with the U.S. Treasury as miscellaneous receipts. The following
           Figure describes the phases of an appropriation as provided in Public
           Law 101-510.

                                               Provisions of Public Law 101-510


                           Currently                                Expired                                 Closed
                            Available            unliquidated     Appropriation         unliquidated
                                                 obligations                            obligations      Appropriation
                          Appropriation
                                                    and                                    and
                                                                      (5 years)
                                                 unobligated                            unobligated
                         (number of years        balances                               balances
                            determined
                              by law




                       Available for new                        Available for                          Available for
                       obligations and                          disbursements to                       adjustments made to
                       disbursements to                         liquidate obligations                  reflect disbursements
                       liquidate obligations                    and for adjustments                    to liquidate
                       from closed accounts                     to obligations                         obligations




           After an appropriation closes, obligations and adjustments to obligations that
           would have been properly chargeable to the appropriation before closing may be
           charged to currently available appropriations subject to limitations specified by
           31 U.S.C. section 1553(b). The total amount of charges to a particular currently
           available appropriation may not exceed the least of:

                   •     the unexpended balance of the closed appropriation;

                   •     the unexpired unobligated balance of the currently available
                         appropriation; or

1
    Appropriation accounts are sometimes called “appropriations” and sometimes they are called “accounts”.
    For consistency and understandability, we will use “appropriation” throughout this report.



                                                                1
                    •   one percent of the total original amount appropriated to the current
                        appropriation being charged.

           Antideficiency Act. 31 U.S.C. 1341 (a) stipulates that an officer or employee of
           the Federal Government may not make or authorize an expenditure or obligation
           exceeding an amount available in an appropriation for that expenditure or
           obligation. The provisions of 31 U.S.C. 1554 extend this to include closed
           appropriations. 31 U.S.C. section 1351 states that if a Federal officer or employee
           does violate 31 U.S.C. section 1341(a), the head of the agency must report
           immediately to the President and Congress all relevant facts and a statement of
           action taken.

           Comptroller General Decisions. In 1993, the Comptroller General of the United
           States (Comptroller General) stated that the Department of the Treasury
           (Treasury), if presented with convincing evidence that a reporting error has
           occurred because of an obvious clerical mistake, might restore such balances to
           correct the mistake, subject to reasonable time limitations. The Comptroller
           General also stated that Treasury may record a disbursement from a closed
           appropriation as a payment, provided that the disbursement was made before the
           appropriation was closed. However, the Comptroller General clearly stated that
           he did not intend for closed appropriation adjustments to correct an agency’s
           accounting system deficiencies. In 1994, the Comptroller General stated that an
           agency “may not avoid adjusting an appropriation account and reporting any
           resulting Antideficiency Act (ADA) violation because (1) the appropriation has
           expired, (2) adjusting the appropriation will result in over obligations, or (3) the
           over obligations were unintentional.” (See Appendix B for further detail on
           closed appropriation guidance.)

           DoD Financial Management Regulation. Volumes 3 and 6A of
           DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” (FMR)
           address policies and procedures for recording and accounting for closed
           appropriations. Appendix B provides specific requirements from the FMR.

           Memorandum of Agreement. On August 3, 2000, the Commissioner of the
           Financial Management Service of the Department of the Treasury, the DoD
           Deputy Chief Financial Officer, and the Deputy Commissioner of the Office of
           Management and Budget reached an agreement concerning controls over
           adjustments to closed appropriations. As part of the agreement, Treasury was to
           close all reopened DoD appropriations2 before the end of FY 2000 and establish a
           new appropriation to process all corrections to closed DoD appropriations when
           the correction is between a closed and an open appropriation. With the
           establishment of this new appropriation, Treasury was no longer responsible for
           tracking individual closed appropriation balances. DoD agreed to internally
           maintain proper closed appropriation(s) records to prevent ADA violations. Thus
           the responsibility for maintaining individual closed appropriation balances
           transferred to DoD. DoD was to provide Treasury with a monthly report of
           detailed transactions identifying both the open appropriation and the closed
2
    Appropriations that were closed by operation of law under Title 31, USC, sections 1552, 1553, or 1557
    and had been reopened to allow Treasury to process corrections between them and current appropriations.




                                                      2
        appropriation to be charged or credited, and to maintain proper supporting
        documentation. DoD agreed to document processing of adjustments to provide an
        audit trail for the recording and reporting of corrections involving closed
        appropriations.

        Defense Finance and Accounting Service Responsibilities. The Defense
        Finance and Accounting Service (DFAS) provides finance and accounting support
        for DoD. Support includes processing adjustments to closed appropriations and
        maintaining records of the unobligated and unliquidated balances of closed
        appropriations. Three DFAS central accounting sites (DFAS Cleveland, DFAS
        Denver, and DFAS Indianapolis) maintain the closed appropriation balances.
        DFAS Indianapolis also reconciles to Treasury records all the adjustments that
        central accounting sites make to closed appropriations. During FY 2001 and the
        first half of FY 2002, DFAS reported adjustments to closed appropriations with
        an absolute value of $3.1 billion to Treasury. Table 1 shows the closed
        appropriation adjustments by Treasury Index (TI). The Treasury Index is a
        double-digit number that denotes a specific Department of the Federal
        Government. Treasury uses the numbers to distribute funds and track
        appropriations.

 Table 1. Closed Appropriation Adjustments Reported to Treasury for the Period
                   October 1, 2000, through March 31, 2002
                                 (in millions)


                                          DFAS Central Accounting
 Treasury                                  Site Maintaining Closed               Absolute
  Index         Department/Agency          Appropriation Balances    Net Value    Value

   17       Department of the Navy        DFAS Cleveland               $261.0    $1,849.2
   21       Department of the Army        DFAS Indianapolis               7.5       219.4
   57       Department of the Air Force   DFAS Denver                   (49.7)      818.1
            Office of the Secretary of
   97       Defense                       DFAS Indianapolis              98.3      261.5
  Total                                                                $317.1    $3,148.2


Objective
        Our objective was to determine whether DFAS adequately accounted for and had
        effective control over closed appropriations. We also reviewed the management
        control program as it related to the overall objective. See Appendix A for a
        discussion of the scope and methodology, our review of the management control
        program, and prior coverage related to the objective.




                                              3
                    Controls Over Closed Appropriations
                    DoD did not have fundamental control over closed appropriations.
                    Specifically, DFAS central accounting sites did not maintain accurate
                    records of closed appropriation balances and did not effectively control
                    adjustments to closed appropriations. These deficiencies occurred
                    because:
                           • DFAS had not established standard operating procedures that
                               ensured compliance with the Comptroller General decisions or
                               with the provisions of the August 3, 2000, Memorandum of
                               Agreement for adjustments made to closed appropriation
                               balances;

                             •   DFAS central accounting sites used inefficient methods to
                                 maintain closed appropriation balances; and

                             •   DFAS had not established effective oversight or supervision of
                                 closed appropriation adjustments.

                    As a result, Congressional and DoD oversight over closed appropriations
                    was impaired and unspent funds in closed appropriations were vulnerable
                    to abuse. In addition, DFAS approved closed appropriation adjustments
                    based on inaccurate balances that could have resulted in over obligations
                    and Antideficiency Act violations, and made improper adjustments to
                    closed appropriations.3


    Closed Appropriation Balances
           DFAS central accounting sites did not maintain accurate records of closed
           appropriation balances, which left the closed appropriations vulnerable to ADA
           violations. This also violated the memorandum of agreement with Treasury and
           OMB. Specifically, DFAS personnel did not always:

                    •   adjust the balance downward in a closed appropriation to reflect
                        disbursements made (from currently available appropriations) to
                        satisfy the closed appropriation’s obligations;

                    •   adjust the balance upward in a closed appropriation to reflect
                        collections or reimbursements to the appropriation; and

                    •   verify that adjustments they reported to Treasury were properly
                        reflected in the closed appropriation balances they maintained.

           DFAS central accounting sites either lacked standard operating procedures for
           maintaining closed appropriation balances or did not enforce the standard
           operating procedures that had been established. Established operating procedures
3
    Contrary to law, regulation, or Comptroller General guidance.



                                                      4
are key to ensuring compliance with the Comptroller General decisions and the
provisions of the August 3, 2000, Memorandum of Agreement. In the absence of
effective standard operating procedures, not all of the adjustments DFAS made
were included in the closed appropriation balances. DFAS must properly
maintain the balances for the closed appropriations although new obligations
cannot be made.

Adjustments Liquidating Obligations in Closed Appropriations. DFAS
Denver and DFAS Indianapolis did not record $34.6 million or more in reductions
to closed appropriation balances to reflect disbursements made (from currently
available appropriations) to liquidate closed appropriations’ obligations. The
FMR volume 3, chapter 10, states that the unexpended balance of a closed
appropriation includes:

          •   the sum of the appropriation funds never obligated,

          •   the funds obligated but not disbursed before the appropriation closed,
              and

          •   obligations and adjustments to obligations that would have been
              properly chargeable to the appropriation before closing but were
              instead charged to current appropriations available for the same
              purpose.

DFAS Denver and DFAS Indianapolis should have recorded the disbursements to
reduce the unexpended balances in the closed appropriations. Neither DFAS
Denver nor DFAS Indianapolis personnel recorded the disbursements. Table 2
categorizes the total of disbursements made from currently available
appropriations to liquidate closed appropriation obligations.

   Table 2. Disbursements made from Current or Expired Appropriations
              to Reduce Obligations in Closed Appropriations
                               (in millions)

                DFAS Central Accounting Site
Treasury           Maintaining Closed
 Index            Appropriation Balances                  Recorded      Unrecorded
   17           DFAS Cleveland                                 $348.6
   21           DFAS Indianapolis                                             $16.3
   57           DFAS Denver                                                    18.3
   97           DFAS Indianapolis                                              0.0*
  Total                                                        $348.6         $34.6
* the amount provided by DFAS Indianapolis for TI 97 was $8,655.75.

DFAS Denver and DFAS Indianapolis did not reflect disbursements from
currently available appropriations in the closed appropriation balances for TI 21,
TI 57, and TI 97. In December 2000, when DFAS Cleveland began factoring the
disbursements into the TI 17 closed appropriation balances, the recalculations



                                         5
           revealed two potential ADA violations.4 DFAS Denver and DFAS Indianapolis
           failure to timely reflect the adjustments for disbursements from currently
           available appropriations in the closed appropriation balances caused
           overstatement of the balances of undispersed funds by at least $34.6 million,
           which may have led to ADA violations.

           Disbursements (from currently available appropriations) made by DFAS Denver
           network personnel to liquidate closed appropriation obligations may be
           $279.6 million greater than the amount shown in Table 2. DFAS Denver used
           two special codes to monitor disbursements from current appropriations to
           liquidate closed appropriation obligations. One code designated liquidation of
           closed appropriation obligations. The other code designated disbursements from
           the current appropriations. DFAS Denver personnel stated that the amounts
           associated with each special code should be equivalent. However, we identified a
           $279.6 million difference when comparing the amounts associated with each
           special code. DFAS Denver personnel researched the discrepancy and reported
           that they did not have any confidence in the reliability of the payment data
           reported by DFAS field accounting sites in their network that include the two
           special codes.

           Adjustments Increasing the Balances of Closed Appropriations. DFAS
           Indianapolis did not consistently record adjustments that increased closed
           appropriation balances. The FMR volume 3, chapter 11, requires that the
           unliquidated balance of the closed appropriation be increased when a collection
           involves an amount that would have been deposited in a closed appropriation had
           that appropriation not closed. DFAS Indianapolis personnel stated that they did
           not report all adjustments to closed appropriations that increased the unliquidated
           balances for TI 21 and TI 97. One group at DFAS Indianapolis processed the
           closed appropriation adjustments and another group at DFAS Indianapolis
           maintained the closed appropriation balances. The group processing the closed
           appropriation adjustments stated that they were not aware that they needed to
           inform the group maintaining the closed appropriation balances that they had
           processed adjustments increasing the unliquidated balance. For example, the
           group processing the January 2001 monthly activity report for closed
           appropriation adjustments included an adjustment increasing closed appropriation
           21-90-2035 for $1.8 million, but this adjustment was not included in the closed
           appropriation balances. We were unable to determine the magnitude of these
           adjustments because of inadequate records. As a result, DFAS Indianapolis
           understated some of the closed appropriation balances.

           Adjustments Reported to Treasury. DFAS did not verify that all the
           adjustments reported to Treasury were properly reflected in the closed
           appropriation balances it maintained. The closed appropriation balances DFAS
           maintained did not include $119.7 million (absolute value) in closed




4
    DFAS Cleveland personnel stated that they informed Navy fund managers of the ADA violations so that
    the managers could research them.



                                                    6
           appropriation adjustments reported to the Treasury. Recalculated5 appropriation
           balances for TI 21 and TI 57 did not match the maintained closed appropriation
           balances. TI 21 closed appropriation ending balances were different in 92 (73
           percent) of 126 closed appropriation balances, which resulted in $16.5 million in
           overstatements. The TI 57 closed appropriation balances were different in
           44 (31 percent) of 142 closed appropriation balances, which resulted in
           $103.2 million in understatements. As a result, DFAS compromised the integrity
           of closed appropriation balances and may have caused ADA violations.

           For example, the DFAS Indianapolis group maintaining the closed appropriation
           balances denied an adjustment to closed appropriation 21-93-2031 for
           $26.7 million, and documented in the control log that the closed appropriation
           contained insufficient funds. Although the DFAS Indianapolis group denied the
           adjustment and did not reflect the $26.7 million adjustment in the TI 21 closed
           appropriation balances, the adjustment was processed and reported to Treasury.
           Because this closed appropriation did not have sufficient funds to accommodate
           the $26.7 million adjustment, a possible ADA violation has occurred. Following
           procedures in DFAS Indianapolis’s guidance would not have ensured discovery
           of this possible ADA violation. When an adjustment calls for more funds than
           remain in a closed appropriation, DFAS should determine whether the adjustment
           is valid and whether it is a reportable violation of the ADA. DFAS should review
           all of the closed appropriation records and then recalculate the closed
           appropriation balances to ensure accuracy of DFAS records and identify potential
           ADA violations.

Closed Appropriation Adjustments
           DFAS did not effectively control adjustments made to closed appropriations. In
           the August 3, 2000, Memorandum of Agreement, DoD agreed to maintain proper
           supporting documentation, maintain appropriate internal closed appropriation(s)
           records for ADA violation purposes, and provide an audit trail for the recording
           and reporting of corrections involving closed appropriations. Specifically, DFAS
           did not:
                    •   maintain an accurate audit trail to determine the total number of
                        adjustments made to closed appropriations;

                    •   ensure that closed appropriation adjustments were necessary, valid,
                        and accurate;

                    •   comply with the FMR 6-month time limit established for closed
                        appropriation adjustments; and


5
    We recalculated the March 31, 2002, closed appropriation balances using the beginning balances supplied
    by DFAS Denver and DFAS Indianapolis and subtracting all adjustments reported by the three central
    accounting sites during the audit period. DFAS Cleveland is the only central accounting site that did not
    report adjustments between two closed appropriations to Treasury. During the audit period, each of the
    TI 21 and TI 57 closed appropriation adjustments processed by DFAS Cleveland were between an open
    appropriation and a closed appropriation.



                                                       7
       •   adhere to the Comptroller General decisions stating that closed
           appropriation adjustments were not to correct system deficiencies.

DFAS did not effectively control closed appropriation adjustments because DFAS
provided neither adequate guidance nor effective oversight or supervision to
monitor the adjustments.

Total Closed Appropriation Adjustments. We did not determine the total
number or absolute value of adjustments DFAS field accounting sites made to
closed appropriations and submitted to the central accounting sites. DFAS field
accounting sites obtained approval from the DFAS central accounting sites for the
closed appropriation adjustments based on the summary transactions that
aggregated the adjustments for each appropriation. For example, DFAS
Indianapolis approved a closed appropriation adjustment requested by DFAS
St. Louis for $2.6 million. However, the $2.6 million was the net value of
17 SF-1081s, Vouchers and Schedules of Withdrawals and Credits, adjusting
closed appropriation 21-92-2040 for an absolute value of $7.3 million. The
DFAS central accounting site personnel approving the closed appropriation
adjustments do not see all the debits and credits affecting each closed
appropriation; they only see the net effect on the closed appropriation.

Closed Appropriation Adjustment Review. DFAS did not ensure that closed
appropriation adjustments were necessary, valid, and accurate. In the
Memorandum of Agreement, DoD agreed to maintain proper supporting
documentation. However, out of 37 closed appropriation adjustments we
reviewed at three DFAS field accounting sites, only 3, totaling $12.5 million,
were supported. Table 3 categorizes the adjustments reviewed by number and
dollar value.

     Table 3. Summary of Closed Appropriation Adjustments Reviewed

                                                Value of            Percentage of
                          Number of            Adjustments         Total Amount of
                          Adjustments           Reviewed            Adjustments
      Category             Reviewed              (in millions)       Reviewed*
 Improper                           3                  $    5.9                 5
 Unsupported                       31                      91.0                83
 Supported                          3                      12.5                12
               Total               37                  $109.4                 100

 * The percentage of the closed account adjustments related to the 37
 adjustments reviewed cannot be projected to the population of adjustments
 from which the sample was selected. Our review did not include DFAS
 Columbus closed account adjustments because GAO reviewed those
 adjustments in their audit.

        Improper Adjustments. Two of the three improper adjustments
transferred prior year credits for “materials returned to store” to a more current


                                      8
appropriation. Under 31 U.S.C 1552(b), if a repayment relates to an expired
appropriation, then it must be deposited in the Treasury as miscellaneous receipts.
Crediting the repayment to current funds is an augmentation of the current
appropriation unless authorized by statute. Such an adjustment would make more
funds available for obligation than were appropriated, which is contrary to
appropriations law. The third improper adjustment incorrectly moved a collection
received for a closed appropriation out of miscellaneous receipts and into the
closed appropriation. The FMR volume 3, chapter 15, “Receipt and Use of
Budgetary Resources,” December 1996, states that collections authorized, or
required to be credited to an appropriation account but not received before closing
of the appropriation, shall be deposited in the miscellaneous receipt account,
“Collections of Receivables from Canceled Accounts.” DFAS needed to record
the collection in the closed appropriation balance, but the collection also had to be
recorded in miscellaneous receipts. The DFAS guidance was inadequate to
prevent improper closed appropriation adjustments.

       Unsupported Adjustments. Of the 37 adjustments reviewed, 31 were
unsupported. Volume 3, chapter 10 of the FMR states that the documentation
must provide an adequate audit trail to the adjusted or corrected transaction.

       •   DFAS Dayton, and DFAS St. Louis made six unsupported adjustments
           because their system records did not match other DoD system records.
           For example, DFAS Columbus made closed appropriation adjustments
           that also needed to be made at DFAS St. Louis. DFAS Columbus
           made internal adjustments to the Mechanization of Contract
           Administration Services system, which did not automatically update
           the system records at DFAS St. Louis. DFAS Columbus then sent a
           copy of the adjustment to DFAS St. Louis for input into the Standard
           Operation and Maintenance Army Research and Development System
           (Accounting).

       •   DFAS made 22 unsupported closed appropriation adjustments to
           correct previous closed appropriation adjustments. For example,
           DFAS Dayton adjusted an original transaction, but failed to correct the
           original error. DFAS Dayton prepared a second adjustment to correct
           the first adjustment. However, the second adjustment incorrectly
           doubled the error created by the first adjustment, resulting in the need
           for a third adjustment. Because DFAS Dayton processed the first
           adjustment without adequate review, two additional closed
           appropriation adjustments resulted. Each time DFAS had to make
           more than one closed appropriation adjustment to correct an original
           transaction, the ability to trace back to the original transaction became
           increasingly difficult or impossible.

       •   The remaining three unsupported vouchers had inadequate
           documentation. For two of the three, the Voucher and Schedule of
           Withdrawals and Credits (Standard Forms 1081) did not match the
           attached documentation. The third adjustment did not contain
           sufficient supporting documentation to complete the audit trail.




                                      9
Time Limitations for Closed Appropriation Adjustments. DFAS did not
comply with the FMR 6-month time limit established for closed appropriation
adjustments. The 1993 Comptroller General decision stated that adjustments for
closed appropriations should manifest themselves soon after the appropriations
closed and that the passage of time only magnifies the difficulty inherent in
reconstructing the facts needed to establish the error. The Comptroller General
decision recommended establishing a reasonable time limit for requests for
corrections to closed appropriations. The FMR volume 3, chapter 10 established
a time limit of 6 months on requests for the correction of errors after the
appropriation in question closed. However, DFAS did not follow this guidance.
For example, DFAS Denver adjusted appropriations that had closed 7 years
earlier. During FYs 2001 and 2002, DFAS Denver adjusted FY 1989
appropriations that closed in FY 1995. DFAS also made adjustments totaling
$155.8 million to appropriations closed on or before September 30, 1993.
Because many of the closed appropriation adjustments did not manifest
themselves within a reasonable time limit, DFAS was unable to reconstruct many
of the facts to determine the propriety of the adjustments.

Correcting System Deficiencies. DFAS adjusted closed appropriations to
correct accounting system deficiencies. The 1993 and 1995 Comptroller General
decisions specifically state that closed appropriation adjustments are not meant to
serve as a palliative for deficiencies in an agency's accounting systems. However,
DFAS used closed appropriation adjustments to correct the effects of an
accounting system deficiency referred to as the decade problem. For example,
appropriations for fiscal years 1989 and 1999 would both be identified as
appropriations for fiscal year 9. Transactions applicable to the older closed
appropriation would be interpreted as applicable to the more recent current or
expired appropriation and allowed to proceed. When this happened, a closed
appropriation adjustment was prepared to move the funds from the current or
expired appropriations to the closed appropriations. For example, DFAS
Charleston processed an SF 1081, Voucher and Schedule of Withdrawals and
Credits, closed appropriation adjustment totaling $4.2 million to correct this type
of error. DFAS should not have used closed appropriation adjustments to
compensate for DoD accounting system deficiencies.

GAO Review of Closed Appropriation Adjustments. As a result of its review
of the FY 2000 closed appropriation adjustments at DFAS Columbus, GAO
concluded that DoD did not have adequate systems, controls, and management
attention to ensure that adjustments affecting closed appropriations were legal and
otherwise proper. GAO reviewed $2.2 billion of the $2.7 billion closed
appropriation adjustments processed at DFAS Columbus in FY 2000 and found
that $615 million of the adjustments (28 percent) were illegal ($146 million) or
otherwise improper ($469 million). DFAS Columbus estimated more than
21,000 staff hours (over 10 staff years) would be needed to correct the accounting
for all of the affected FY 2000 transactions. In July 2002, GAO reported that
DoD actions to resolve its problems with closed appropriation adjustments were
beginning to produce positive short-term results at DFAS Columbus, possibly
reducing its closed appropriation adjustments by up to 80 percent.




                                    10
Controls Over Closed Appropriation Processes
    Controls over closed appropriation processes were ineffective, specifically:

           •   DFAS had not established standard procedures that ensured
               compliance with the Comptroller General decisions for adjustments
               made to closed appropriation balances or with the provisions of the
               August 3, 2000, Memorandum of Agreement;

           •   DFAS central accounting sites used inefficient methods to maintain
               closed appropriation balances; and

           •   DFAS had not established effective oversight or supervision of closed
               appropriation adjustments.

    DFAS processes led to inaccurate closed appropriation balances being used in
    decision-making, improper closed appropriation adjustments, and the loss of
    oversight over closed appropriations.

    DFAS Operating Procedures. DFAS central accounting sites maintained
    inaccurate records of closed appropriation balances because DFAS had not
    established standard procedures and guidance. DFAS did not ensure compliance
    with the Comptroller General decisions related to adjustments to closed
    appropriations, the FMR, or the provisions of the August 3, 2000, Memorandum
    of Agreement. Each DFAS central accounting site maintaining closed
    appropriation balances issued its own guidance on closed appropriations.

    Each DFAS central accounting site also established its own guidance for
    approving closed appropriation adjustments. All three DFAS central accounting
    sites’ guidance allowed approval of an adjustment only if the closed appropriation
    had sufficient funding. For example, DFAS Indianapolis guidance states that if a
    requested closed appropriation adjustment meets certain criteria and the
    appropriation has sufficient funding, DFAS Indianapolis personnel will assign a
    control number; if not, they deny the adjustment. This is contrary to the
    Comptroller General decision. The 1994 Comptroller General decision states that
    an agency may not avoid adjusting an appropriation account and reporting any
    resulting ADA violation on the basis that (1) the account has expired,
    (2) adjusting the account will result in an over obligation, or (3) the over
    obligations were unintentional.

    In addition, DFAS field accounting sites would prepare and enter adjustments to
    closed appropriations. DFAS central accounting sites only reviewed the
    adjustments for sufficient funds. If funds were available the central accounting
    sites would approve the adjustment; however, there was no evidence that that the
    adjustment was reviewed to determine if it was valid and supported. The DFAS
    central accounting sites did not retain the detailed supporting documentation.
    DFAS should establish standard procedures that:

           •   provide guidance on the maintenance of closed appropriation balances,



                                        11
       •   provide guidance for preparing and supporting adjustments to closed
           accounts,

       •   restrict the preparation of adjustments to the central accounting sites,

       •   require that all closed appropriation adjustments be made no more than
           six months after the appropriation is closed, and

       •   eliminate the practice of making adjustments to correct system
           deficiencies.

DFAS Accounting Methods. The methods used by DFAS central accounting
sites to maintain the closed appropriation balances needed improvement. DFAS
Cleveland and DFAS Indianapolis maintained the closed appropriation balances
in Excel spreadsheets that rendered the closed appropriation balances vulnerable
to human error. For example, DFAS Indianapolis maintained 119 closed
appropriation balances for TI 21, but there were 126 TI 21 closed appropriations
with adjustments reported to Treasury. As the FMR volume 3, chapter 11
requirement to maintain closed appropriation balances in perpetuity will remain in
effect, better methods are needed. In addition, the number of closed appropriation
balances to be maintained will continue to increase each year. As the number of
maintained closed appropriation balances grows, it will become even more
difficult to maintain these balances in Excel spreadsheets and the problems noted
with the balances will become worse. DFAS should develop and implement a
standardized process and system for the maintenance of accurate records of closed
appropriation balances.

DFAS Oversight and Supervision. DFAS had not established effective
oversight or supervision of closed appropriation adjustments. DFAS personnel
prepared, and DFAS supervisors approved, adjustments that were improper, were
inadequately supported, were not made within a reasonable time, and were used
to correct accounting system deficiencies. In addition, DFAS approved closed
appropriation adjustments based on inaccurate balances that could have resulted
in over obligations and Antideficiency Act violations, and made improper
adjustments to closed appropriations. GAO found similar deficiencies during its
FY 2000 review at DFAS Columbus. DFAS should establish specific standard
procedures that ensure that only senior managers at the central accounting sites
approve only legal, proper adjustments to closed appropriations. In addition,
DFAS should establish a process to monitor compliance with the standard
procedures. During our visit to DFAS Dayton Field Accounting site, personnel
stated that they had not received any guidance on closed account adjustments
from DFAS Denver. Once DFAS has developed new standard procedures and a
new process and system, DFAS personnel who will be responsible for the
accounting for, and management of, closed appropriations accounts and
adjustments should receive training.




                                     12
Oversight and Use of Closed Appropriations
    Because of inadequate controls over closed appropriation processes,
    Congressional oversight over closed appropriations was impaired and unspent
    funds in closed appropriations were vulnerable to abuse.

    Congressional Oversight. GAO stated, in its July 2002 report on Canceled DoD
    Appropriations,
               In 1990, Congress changed the law governing the use of appropriation
               accounts because it determined that controls over them were not
               working. In particular, the Congress found that DoD may have spent
               hundreds of millions of dollars for purposes the Congress had not
               approved. The 1990 law was intended to improve congressional
               control by providing that, 5 years after the expiration of the period of
               availability of a fixed-term appropriation, the appropriation account
               should be closed and all remaining balances canceled.

    The practice of making accounting adjustments to closed appropriations
    constitutes a grave risk to the intent of Congress unless subject to exemplary
    control.

    Use of Unspent Funds. By eliminating independent Treasury supervision of the
    closed appropriation balances and placing control of the closed appropriation
    balances in the hands of the original fund users, the August 3, 2000,
    Memorandum of Agreement only exacerbated this risk. Because of this lack of
    independence, the current environment may allow fund holders to manipulate
    funds. For example, fund holders might transfer a disbursement to a closed
    appropriation that was chargeable to an open appropriation without justification,
    thus increasing available funds in the open appropriation. Table 1 shows
    $317.2 million in net adjustments that decreased the closed appropriation
    balances and increased the use of available funds by using unspent funds in the
    closed appropriations. We were unable to determine if these adjustments were
    legal, proper, and supported because of the control deficiencies identified during
    the audit.

    GAO concluded in its July 2002 report on Canceled DoD Appropriations:
               . . . the lack of fundamental controls and management oversight had
               fostered the idea among DoD contracting and accounting personnel
               that it was acceptable to maximize the use of available funds by
               adjusting the accounting records to use up unspent funds in the closed
               accounts, regardless of the propriety of doing so.

    The Under Secretary of Defense (Comptroller)/Chief Financial Officer should
    emphasize the importance of controls over the use of closed appropriations and
    monitor compliance with applicable laws and regulations. Also, the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer needs to establish and
    use management performance metrics to monitor compliance with the laws and
    regulations applicable to closed appropriations balances and adjustments.



                                            13
Conclusion
    DoD did not have fundamental control over closed appropriations. DFAS had not
    established standard operating procedures that ensured compliance with the
    Comptroller General decisions or with the provisions of the August 3, 2000,
    Memorandum of Agreement for adjustments made to closed appropriation
    balances. In addition, DFAS central accounting sites used inefficient methods to
    maintain closed appropriation balances. Because of this, DFAS central
    accounting sites did not maintain accurate records of closed appropriation
    balances, leaving the closed appropriations vulnerable to ADA violations. DFAS
    central accounting sites should perform a one-time revalidation of closed
    appropriations balances and report any potential ADA violations. DFAS will
    continue to carry inaccurate closed appropriation balances on its records until
    those balances are corrected. The revalidation should include a one-time review
    of closed appropriation adjustments to determine if they are valid and supported,
    verify that all valid and supported adjustments have been properly recorded and
    included in the closed appropriation balances, and reverse all improper
    adjustments made to closed appropriations.

    Because DFAS had not established effective oversight or supervision of closed
    appropriation adjustments, DFAS accounting sites did not effectively control
    adjustments to closed appropriations. Congressional and DoD oversight over
    closed appropriations was impaired, unspent funds in closed appropriations were
    vulnerable to abuse, and DFAS made and approved improper adjustments to
    closed appropriations.


Recommendations, Management Comments, and Audit
  Response
    Deleted, Revised, and Renumbered Recommendations. We deleted draft
    report Recommendation 2.a.2. and modified and renumbered
    Recommendations 2.a.3. (now 2.a.2.), 2.a.4. (now 2.a.3.), and 2.a.5. (now 2.a.4.).
    We agree with the Director, Defense Finance and Accounting Service that
    adjustments made to closed appropriations should be prepared by the field
    accounting sites so long as the adjustments are properly approved and controlled
    by appropriate means. Recommendation 2.a.2. was revised to clarify the
    requirement for timely completion of closed account adjustments.
    Recommendation 2.a.3. was modified accepting alternate procedures concerning
    adjustments caused by system deficiencies, as proposed by Management.

    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer, in conjunction with the Director, Defense Finance and
    Accounting Service, establish and use management performance metrics to
    monitor compliance with the laws and regulations applicable to closed
    appropriations balances and adjustments and hold the Defense Finance and
    Accounting Service centers responsible for complying with the applicable
    laws and regulations.



                                        14
Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer concurred and stated that DoD would establish a performance
metric for approved closed account adjustments. The Director, Defense Finance
and Accounting Service also provided comments and concurred and
acknowledged that controls over closed appropriations are sufficiently important
to warrant a performance metric.

Auditor Response. The comments of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer were responsive although a completion
date was not included. In subsequent correspondence, the Under Secretary of
Defense (Comptroller)/Chief Financial Officer stated that the metric would be
established by September 30, 2003.

2. We recommend that the Director, Defense Finance and Accounting
Service:

       a. Establish standard procedures that ensure compliance with
Public Law 101-510 (31 U.S.C. 1551-1557), the Comptroller General
decisions, and the provisions of the August 3, 2000, Memorandum of
Agreement for adjustments made to closed appropriation balances.
Specifically:

             (1) Implement standard procedures for the preparation of
adjustments to closed appropriations.

Management Comments. The Director, DFAS concurred and estimated that the
standard procedures would be reviewed and updated by January 15, 2004. The
Director, DFAS estimated that the standard guidance would be implemented by
June 30, 2004.

               (2) Require all closed appropriation adjustments be made not
more than six months after the discovery of a clerical accounting error
causing the adjustment or the completion of the reconciliation of a contract,
provided that the adjustment can be properly supported and the adjustment
is for a disbursement made before the cancellation of the appropriation.
Management Comments. The Director, DFAS did not concur with the draft
report recommendation. The Director, DFAS pointed out that in B-251287.3,
dated November 1, 1995, the Comptroller General stated that the requirement to
maintain accurate accounting records was more important than completing
adjustments within a set timeframe. The Director DFAS also pointed out that
clerical errors are often discovered only during contract reconciliation. However,
the Director, DFAS proposed that procedures to ensure that clerical accounting
errors are corrected as soon as possible after discovery be added to the DFAS
standard procedures discussed in management comments on Recommendation
2.a.1 for adjustments to cancelled appropriations.

Audit Response. Although Management did not concur, we consider the
comments to be responsive. The Director, DFAS comments on B-251287.3 need
clarification. In B-251287.3 the Comptroller General also stated that Federal
agencies “should be able to complete their accounting and reporting within


                                    15
established timeframes.” The Comptroller General also “recognized the
possibility that DoD would not meet such timeframes.” B-251287.3 also stated
that this applied to disbursements made prior to cancellation of the appropriations,
and that adjustments “should be supported by documentary evidence and be able
to withstand audit scrutiny.” As discussed in this report, DoD has not made a
significant effort to meet established accounting and reporting timeframes, closed
appropriation adjustments go unsupported, and the accounting process cannot
withstand audit scrutiny. We do recognize the importance of maintaining
accurate accounting records so long as adjustments are necessary to correct
clerical errors and meet the other Comptroller General requirements. The
proposed alternative actions meet the intent of the draft recommendation. No
further comments are required.

               (3) Identify accounting system deficiencies that cause
adjustments to cancelled appropriations, correct the system deficiencies if
possible, or establish preventative measures if not.

Management Comments. The Director partially concurred with the draft
recommendation, stating that the requirement to maintain accurate accounting
records was more important than the prohibition against using closed account
adjustments to compensate for deficient accounting systems. However, the
Director stated that DFAS did not intend to rely on adjustments as a palliative for
accounting system deficiencies but pointed out that restriction on changes to
existing accounting systems often precluded correction of known deficiencies.
The Director proposed to establish formal procedures to identify accounting
system deficiencies causing adjustments to cancelled balances, or develop interim
preventative measures if system changes are not possible. These procedures are
to be incorporated in the DFAS standard procedures discussed in
Recommendation 2.a.1.

Audit Response. Although Management did not fully concur, we consider the
comments to be responsive. The Comptroller General clearly differentiated
between the correction of clerical errors and the use of closed account
adjustments as a palliative for deficient DoD accounting systems (see 72
Comptroller General 343, September 29, 1993 discussed in Appendix B). The
Comptroller General specifically disallowed that practice because of inadequate
accounting systems. The reliability of the information used to support any
adjustment to correct an error caused by a system deficiency is suspect. Both the
Comptroller General and the Financial Management Regulation require that
closed appropriations adjustments withstand audit scrutiny. We recognize the
importance of maintaining accurate accounting records so long as adjustments are
necessary to correct clerical errors and meet the other Comptroller General
requirements. The proposed alternative actions meet the intent of the draft
recommendation. No further comments are required.

             (4) Restrict the approval of closed appropriations adjustments
to senior managers at central accounting sites and retain copies of the
supporting documentation at the central accounting sites.

Management Comments. The Director partially concurred and stated that
procedures would be revised to include approval responsibility thresholds similar


                                    16
to those used for other accounting adjustments. However, the Director did not
concur with centralizing approval authority at the central accounting sites because
of lack of available documentation and proposed alternative procedures. Each
closed account adjustment would be approved by a responsible person. The
responsibilities and core competencies for the position will be defined in the
standard procedures and incorporated into the Department of Defense Financial
Management Regulation. Adjustments currently processed through the
Mechanization of Contracts Administration System are subject to controls already
approved by the General Accounting Office. Other closed account adjustments
equal to or exceeding $1 million dollars must be subsequently reviewed by the
field site director or the accounting officer. Adjustments below this threshold are
subject to review by DFAS Internal Review. The DFAS Internal Review shall be
responsible for the design and execution of a plan to review a statistical sample of
such non-MOCAS processed closed account adjustments on an annual basis.
These procedures are to be incorporated in the DFAS standard procedures
discussed in Recommendation 2.a.1.

Audit Response. Management comments were responsive. The proposed
alternative actions meet the intent of the draft recommendation. No further
comments are required.

      b. Implement a standard process and system for the maintenance of
accurate records of closed appropriation balances.

        c. Establish a process to monitor compliance with the procedures
established pursuant to recommendation 2.a.

      d. Conduct training in the standard procedures for all appropriate
personnel on a regular basis.

       e. Revalidate the closed appropriation balances and report any
potential Antideficiency Act violations in accordance with 31 U.S.C. 1351.
Specifically:

             (1) Perform a one-time review of closed appropriation
adjustments to determine if they are valid and supported.
             (2) Verify that all valid and supported adjustments have been
properly recorded and included in the closed appropriation balances.

             (3) Reverse all improper adjustments made to closed
appropriations.

Management Comments. The Director concurred and estimated that action on
Recommendations 2.b., 2.c., 2.d., 2.e.1., 2.e.2., and 2.e.3. would be complete by
June 30, 2004




                                     17
Appendix A. Scope and Methodology
 We reviewed the controls over closed appropriations established by central
 accounting sites at DFAS Cleveland, DFAS Denver, and DFAS Indianapolis.
 Specifically, we reviewed the guidance established by the three DFAS central
 accounting sites to process closed appropriation adjustments and maintain the
 closed appropriation balances. We reviewed the closed appropriation accounting
 records maintained by DFAS Cleveland, DFAS Denver, and DFAS Indianapolis
 for the period October 2000 through March 2002. DFAS reported $3.1 billion in
 adjustments to closed appropriations for this time period.

 We performed this audit from March 2002 through March 2003 in accordance
 with generally accepted government auditing standards.

 We analyzed DFAS closed appropriation adjustment procedures to determine
 whether DFAS is adequately accounting for and effectively controlling closed
 appropriation adjustments. We reviewed the closed appropriation accounting
 records to separate the adjustments made in the Mechanization of Contract
 Administration Services from adjustments made in other accounting systems. We
 identified closed appropriation adjustments at the three DFAS central accounting
 sites that were not processed by DFAS Columbus. We visited one DFAS field
 accounting site for each DFAS central accounting site. Out of closed
 appropriation adjustments identified, we judgmentally selected the 37 closed
 appropriation adjustments that DFAS field accounting sites: DFAS Charleston,
 DFAS Dayton, and DFAS St. Louis, processed. We based the judgmental sample
 on the high-dollar value adjustments processed in the closed appropriation records
 at the DFAS central accounting sites. We assessed the supporting documentation
 and validity of those adjustments. We interviewed DFAS personnel responsible
 for accounting for and controlling closed appropriations.

 We could not accurately determine the total number of adjustments made to
 closed appropriations for the period of the audit. The closed appropriation data
 processed by DFAS field accounting sites is at the appropriation summary level
 by the time the DFAS central accounting sites see the closed appropriation
 adjustments. In addition, closed appropriation records maintained by DFAS
 central accounting sites were not sufficient or reliable. Therefore, the closed
 appropriation balances could not be determined. In addition, we did not perform
 a review of the limitation to 1 percent of current year appropriations for
 obligations and adjustments to obligations that would have been properly
 chargeable to a closed appropriation.

 We did not review the adjustments to closed appropriations made by DFAS
 Columbus. GAO had performed a review of the closed appropriation adjustments
 prepared by DFAS Columbus. The GAO review did not assess the controls over
 the closed appropriation balances. See “GAO Review of Closed Appropriation
 Adjustments” for additional details.

 Use of Computer-Processed Data. We could not rely on the computer-
 processed data used by the DFAS central accounting sites to process closed
 appropriation adjustments and maintain the closed appropriation balances. Our


                                     18
    review of system controls and the results of data tests showed an error rate that
    casts doubt on the data’s validity. However, the data, when reviewed in context
    with other available evidence, validates the opinions, conclusions, and
    recommendations in this report.

    General Accounting Office High-Risk Area. The GAO has identified several
    high-risk areas in DoD. This report provides coverage of the Defense Financial
    Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS management controls over closed appropriations.
    Specifically, we reviewed DFAS management controls over the maintenance of
    closed appropriation balances and the accounting for and control over closed
    appropriation adjustments. We also evaluated the adequacy of management’s
    self-evaluation over those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for DFAS as defined by DoD Instruction 5010.40. DFAS
    management controls for closed appropriation adjustments were not adequate to
    ensure that DFAS adequately accounted for and had effective controls over closed
    appropriation adjustments. The recommendations, if implemented, will improve
    controls over adequately accounting for closed appropriations. A copy of the
    report will be provided to the senior official responsible for management controls
    in DFAS.
    Adequacy of Management’s Self-Evaluation. DFAS officials did not identify
    controlling closed appropriation adjustments as an assessable unit, and only
    DFAS Cleveland and DFAS Charleston identified the maintenance of closed
    appropriation balances as an assessable unit. Therefore, DFAS officials did not
    identify or report the material management control weaknesses identified by the
    audit.


Prior Coverage
    During the last 5 years, the GAO and the Inspector General of the Department of
    Defense (IG DoD) have issued four reports discussing closed appropriation
    adjustments. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


                                        19
GAO
      GAO Report No. GAO-02-747, “Canceled DoD Appropriations: Improvements
      Made but More Corrective Actions are Needed,” July 2002

      GAO Report No. GAO-01-697, “Canceled DoD Appropriations: $615 Million of
      Improper or Otherwise Improper Adjustments” July 26, 2001

IG DoD
      IG DoD Report No. D-2003-034, “Adjustments to the Intergovernmental
      Payments Account,” December 10, 2002

      IG DoD Report No. D-2000-030, “Recording Obligations in Official Accounting
      Records,” November 4, 1999




                                       20
Appendix B. Closed Appropriation Guidance

Comptroller General Decisions
    The Comptroller General of the United States (Comptroller General) ruled that
    under certain limited circumstances, the Department of the Treasury (Treasury)
    could restore unobligated or obligated appropriation account balances
    (72 Comptroller General 343, September 29, 1993). Agencies could use the
    restored balances to correct reporting errors or clerical mistakes. Agencies could
    also record, as a payment from a closed appropriation, a disbursement made
    before cancellation of the appropriation. This is an accounting entry to reflect the
    liquidation of an obligation validly incurred and liquidated before cancellation.
    Treasury’s authority to correct closed appropriations related only to obvious
    clerical errors, such as misplaced decimals or transposed digits. However, the
    Comptroller General specifically stated that the use of closed appropriation
    adjustments was not meant to serve as a palliative for deficiencies in DoD
    accounting systems. The Comptroller General decision also stated that
    correctable errors should manifest themselves soon after the appropriation closes.

    The Comptroller General addressed the requirement to report potential
    Antideficiency Act (ADA) violations in appropriations that have been closed
    (73 Comp. Gen. 338, September 28, 1994). Prior to 1990, ADA violations could
    be avoided by delaying recognition of excess obligations or disbursements until
    the appropriation in question had closed into merged surplus authority and lost its
    individual identity. Since 1990, any needed adjustments are made to the agency’s
    accounting records that relate to a closed appropriation, as opposed to the amount
    of obligations recorded against the appropriation account. Agencies may not pay
    from current appropriations obligations that exceed amounts that were available
    for that purpose in the closed appropriation. Agencies must adjust the closed
    appropriation balances accordingly in order to properly apply this limitation. Any
    ADA violation in an appropriation that is closed should be reported.

    The Comptroller General reaffirmed the 1993 decision that Treasury’s authority
    to correct appropriations did not extend to reporting errors caused by an agency’s
    accounting system (Comptroller General Decision, B-257,825, March 15, 1995).
    The Treasury refused to make a closed appropriation adjustment to restore funds
    requested by the Federal Aviation Agency because the adjustment was not due to
    obvious clerical errors but rather to accounting system deficiencies. The
    Comptroller General upheld the Treasury’s refusal.


DoD Financial Management Regulation
    DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” (FMR)
    addresses policies and procedures for recording and accounting for closed
    appropriation adjustments.


                                         21
Closed Appropriation Unexpended Balance. The FMR, Volume 3,
Chapter 10, “Accounting Requirements for Expired and Closed Accounts,”
December 2000, implements certain provisions of Title 31, U.S.C., relating to
expired and closed appropriations. The FMR defines the unexpended balance of a
closed appropriation as:
           The sum of the unobligated balance plus the unpaid obligations of an
           appropriation at the time of cancellation, adjusted for obligations and
           payments which are incurred or made subsequent to cancellation, and
           which would otherwise have been properly charged to the
           appropriation except for the cancellation of the appropriation.

Antideficiency Act Violations. The FMR, Volume 3, Chapter 11, “Unmatched
Disbursements, Negative Unliquidated Obligations, In-Transit Disbursements,
and Suspense Accounts,” January 2001, prescribes the requirements for
researching and correcting unmatched disbursements, negative unliquidated
obligations, in-transit disbursements, and disbursements in suspense accounts.
The FMR Volume 3, Chapter 11 requires that:
           A potential violation of the ADA shall be reported and a preliminary
           review of an ADA violation initiated if posting an adjustment to a
           current, expired or closed appropriation would result in either (1) a
           negative unobligated balance or (2) disbursements that are in excess of
           the amount appropriated, at either the appropriation level or a portion
           thereof that has been subdivided for ADA purposes.

Perpetual balances of unobligated amounts and unliquidated amounts must be
maintained for each closed appropriation. Should the unobligated balance in a
closed appropriation be negative, or should the unexpended balance be negative,
then a potential violation of the ADA would have occurred, and must be reported
and investigated.

Collections of Receivables from Closed Appropriations. The FMR, Volume 3,
Chapter 15, “Receipt and Use of Budgetary Resources Execution Level,”
December 1996, prescribes departmental standards for recording transactions in
the execution-level budgetary accounts. The FMR, Volume 3, Chapter 15, states
that the obligational status of a canceled appropriation continuously must be
maintained even though no expenditures or collections may be made to that
appropriation. In addition, collections authorized, or required to be credited to an
appropriation account but not received before closing of the appropriation, must
be deposited in the miscellaneous receipt account “Collections of Receivables
from Canceled Accounts” (Treasury Symbol 3200).

Supporting Accounting Entries. The FMR, Volume 6A, Chapter 2, “Financial
Reports Roles and Responsibilities,” March 2002, requires that adjustments made
by DFAS or by DFAS Customers must be supported by written documentation
which is sufficiently detailed so that it provides an audit trail to the source
transaction(s) that require the adjustments. This documentation shall include the
rationale and justification for the adjustment, detailed numbers and dollar
amounts of errors or conditions that are related to the transaction(s) or record(s)
that are proposed for adjustments, the date of the adjustment, and the name and
position of the individual approving the adjustment. The FMR, Volume 6A,


                                        22
Chapter 2, also states that the documentation shall be sufficient for the approving
official and others, such as auditors, to understand clearly the reason for preparing
the journal voucher and to determine whether it is proper and accurate. Proper
documentation, in either hard copy or electronic form, is necessary to support all
journal voucher entries. The FMR Volume 3, Chapter 10, requires that, at a
minimum, evidence should include the original accounting record from which the
incorrect posting was made and a record showing the incorrect amount.




                                     23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform


                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        25
Office of the Under Secretary of Defense
(Comptroller) Comments




                       27
28
Defense Finance and Accounting Service
Comments




                      29
Final Report
 Reference




Deleted




               30
     Final Report
      Reference




     Revised and
     renumbered
     as Recom-
     mendation
     2.a.2.




31
Final Report
 Reference




Revised and
Renumbered
 as Recom-
mendation
2.a.3




               32
     Final Report
      Reference




     Revised and
     Renumbered
     as Recom-
     mendation
     2.a.4




33
34
35
36
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Jack L. Armstrong
N. Dale Gray
Paul C. Wenzel
Kathleen A. Furey
Emily G. Richards
Kara N. Welty
